                                                      1


                                       SOCIAL SECURITY
MEMORANDUM

Date:   September 3, 2004                                                Refer To:

To:     The Commissioner

From:   Acting Inspector General

Subject: Performance Indicator Audit: President’s Management Agenda Related Initiatives
        (A-15-04-14070)


        We contracted with PricewaterhouseCoopers, LLP (PwC) to evaluate 16 of the Social
        Security Administration’s performance indicators established to comply with the
        Government Performance and Results Act. The attached final report presents the
        results of four of the performance indicators PwC reviewed. For each performance
        indicator included in this audit, PwC’s objectives were to:
           •   Test critical controls over the data generation and calculation processes for the
               specific performance indicator,
           •   Assess the overall adequacy, accuracy, reasonableness, completeness, and
               consistency of the performance indicator and supporting data, and
           •   Determine if each performance indicator provides meaningful measurement of
               the program and the achievement of its stated objectives.

        This report contains the results of the audit for the following indicators:

           •   “Get to Green” on all President’s Management Agenda Initiatives,
           •   Percent of Commercial Positions Competed or Converted,
           •   Percent Improvement in the New Hire Retention Rate, and
           •   Provide the Equivalent of 40 Hours of Training Annually to all Employees.

        Please provide within 60 days a corrective action plan that addresses each
        recommendation. If you wish to discuss the final report, please call me or have your
        staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
        (410) 965-9700.




                                                          S
                                                          Patrick P. O’Carroll, Jr.

        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



   PERFORMANCE INDICATOR AUDIT:
  PRESIDENT’S MANAGEMENT AGENDA
        RELATED INITIATIVES


  September 2004   A-15-04-14070




AUDIT REPORT
                                     Mission

We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                    Authority

The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                      Vision

By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
MEMORANDUM

Date:    August 6, 2004

To:      Acting Inspector General

From:    PricewaterhouseCoopers LLP

Subject: Performance Indicator Audit: President’s Management Agenda Related
         Initiatives (A-15-04-14070)


The Government Performance and Results Act (GPRA)1 of 1993 requires the Social
Security Administration (SSA) to develop performance indicators that assess the
relevant service levels and outcomes of each program activity.2 GPRA also calls for a
description of the means employed to verify and validate the measured values used to
report on program performance.3

OBJECTIVE
For each performance indicator included in this audit, our objectives were to:

         1. Test critical controls over the data generation and calculation processes for
            the specific performance indicator.

         2. Assess the overall adequacy, accuracy, reasonableness, completeness, and
            consistency of the performance indicator and supporting data.

         3. Determine if each performance indicator provides meaningful measurement
            of the program and the achievement of its stated objectives.




1
  Public Law (P.L.) No. 103-62, 107 Stat. 285.
2
  31 United States Code (U.S.C.) 1115(a)(4).
3
  31 U.S.C. 1115(a)(6).


Performance Indicator Audit: PMA Related Initiatives (A-15-04-14070)                        1
We audited the following performance indicators as stated in the SSA
Fiscal Year (FY) 2003 Performance and Accountability Report (PAR):

  Performance Indicator                           FY 2003 Goal         FY 2003 Reported Results
“Get to Green” on all                    Receive a “green” for         Received a “green” for
President’s Management                   progress on 100% of PMA       progress on 100% of PMA
Agenda (PMA) Initiatives                 initiative plans.             initiative plans.
Percent of Commercial
Positions Competed or                                    15%                    0.4%
Converted
Percent Improvement in the
                                                       84.6%                    86.4%
New Hire Retention Rate
Provide the Equivalent of
40 Hours of Training                                  40 hours                 68 hours
Annually to All Employees

BACKGROUND

The President’s Management Agenda

The PMA4 was designed to “…address the most apparent deficiencies where the
opportunity to improve performance is the greatest.” The PMA commits Federal
agencies to achieving immediate, concrete, and measurable results in the near term.
It not only focuses on remedies to problems generally agreed to be serious, but more
importantly, commits to implement them fully. The five government-wide goals are
described below:

      1. The “Strategic Management of Human Capital” initiative requires agencies to
         prepare for massive impending retirements and remedy deficiencies in the skills
         of their employees.
      2. “Competitive Sourcing” requires that agencies make sure the most efficient
         sources perform their commercial activities.
      3. “Improved Financial Performance” enhances the quality of financial information
         so that agencies can ensure the integrity and efficiency of their operations.
      4. “Expanded Electronic Government” improves the management of information
         technology and streamlines and simplifies the delivery of Government services
         through the use of the Internet.
      5. “Budget and Performance Integration” enhances the quality of information on
         program results so that Government can make better decisions about its
         allocation of resources.




4
    http://www.whitehouse.gov/omb/budget/fy2002/mgmt.pdf.

Performance Indicator Audit: PMA Related Initiatives (A-15-04-14070)                        2
RESULTS OF REVIEW

“Get to Green” on All PMA Initiatives

          FY 2003 Goal: 100 percent of initiative plans receive “green” for progress.
          Actual FY 2003 Performance: Received a “green” for progress on 100 percent
          of PMA initiative plans.
          SSA met the goal.5 The FY 2003 ratings for progress were “green” on the five
          PMA plans.
P
Indicator Background
MA Plan
To ensure accountability for performance and results, the President’s Administration is
using an Executive Branch Management Scorecard to track how well agencies are
executing the management initiatives (i.e. status), and their progress at a given point in
time (i.e. progress) against overall standards for success.

The Office of Management and Budget (OMB) is tasked with evaluating agencies’
performance (status and progress) in “Getting to Green” on the five PMA initiatives.
At the end of each fiscal quarter, agencies are required to report to OMB on their
accomplishments for that quarter and the planned actions for the next quarter. OMB
reviews the quarterly PMA update reports and rates the agencies on their progress and
status using the scorecard. SSA receives the scorecard from OMB approximately
2 weeks after the close of each quarter.

Status: Scores are based on five standards for success defined by the President’s
Management Council. OMB assigns status scores as follows:

          Green –          The Agency met all of the standards for success.
          Yellow –         The Agency achieved some but not all of the criteria.
          Red –            The Agency had any number of serious flaws.

Progress: OMB assesses progress on a case-by-case basis against planned
deliverables established for the five initiatives. OMB assigns progress scores as
follows:

          Green –          Implementation is proceeding according to plan.
          Yellow –         Some slippage or other issues requiring adjustment by the Agency
                           to achieve the initiative objectives on a timely basis.
          Red –            Initiative is in serious jeopardy; unlikely to realize objectives absent
                           significant management intervention.

5
    Social Security Administration Performance and Accountability Report Fiscal Year 2003, page 50.

Performance Indicator Audit: PMA Related Initiatives (A-15-04-14070)                                  3
Findings

We found the data SSA provided to OMB was accurate and complete. However, we
found that SSA had not documented policies and procedures related to the formal
process to collect, review and provide PMA information to OMB.

The PMA initiatives represent high-level strategic directions that cover three out of the
four SSA Strategic Goals:
         •   Service
         •   Stewardship
         •   Staff

Furthermore, the indicator is an indirect measure of efforts to achieve the results linked
to SSA’s strategic objective “Efficiently manage Agency finances and assets, and
effectively link resources to performance outcomes”6 rather than specific results or
outcomes.

Percent of Commercial Positions Competed or Converted

         FY 2003 Goal: 15 percent.
         Actual FY 2003 Performance: 0.4 percent.
         SSA did not meet its goal. To reach the 15 percent goal, SSA must compete
         all the functions identified in the Agency’s competitive sourcing plan for
         2002/2003.7

Indicator Background

The policy of the Federal Government is to rely on the private sector for needed
commercial services. To ensure that the American people receive maximum value for
their tax dollars, commercial activities should be subject to the forces of competition. 8
The agencies shall:

    1. Identify all activities performed by Government personnel as either commercial or
       inherently governmental.

    2. Use a streamlined or standard competition to determine if Government personnel
       should perform a commercial activity.




6
  Social Security Administration Performance and Accountability Report Fiscal Year 2003, page 47.
7
  Ibid, page 86.
8
  OMB Circular No. A-76 (Revised) Performance of Commercial Activities, page 1.

Performance Indicator Audit: PMA Related Initiatives (A-15-04-14070)                                4
This indicator was calculated as follows:
                                                             Number of Federal Government positions
                                                             competed or converted to commercial
             Percent of Commercial                           positions in FYs 2001, 2002, and 2003.
      Positions Competed or Converted =                      Number of Federal positions eligible for
                                                             competition or conversion from the FY
                                                             2000 Federal Activities Inventory Reform
                                                             (FAIR)9 Act Inventory.

This performance indicator represents the percentage of SSA’s commercial activities
competed with commercial sources, or directly converted to contract, by the end of each
FY. SSA calculated this performance indicator in accordance with OMB guidelines.

Findings

SSA relies on OMB A-76 guidance as documentation for the Competitive Sourcing
processes. As a result, SSA has not formally documented its procedures related to the
development of their Competitive Sourcing Plan (CSP). The process for developing the
CSP involves collecting, validating, and then reporting information from numerous
sources within the SSA.

SSA did not clearly articulate in the FY 2003 PAR that the numerator for this
performance indicator’s calculation is the composite number of Federal Government
positions competed or converted to commercial positions in FYs 2001, 2002, and
2003. As the FY 2003 PAR is currently documented, the reader would infer that the
performance indicator numerator is the Federal Government positions competed or
converted in FY 2003 only.

The FY 2003 PAR did not articulate the benefits (for example, cost savings) of
competing or converting commercial positions and how this supported SSA’s strategic
goals and objectives. It did however describe the programs in place for achieving the
goal including specific action plans for FY 2004.

Percent Improvement in the New Hire Retention Rate

          FY 2003 Goal: 84.6 percent.
          Actual FY 2003 Performance: 86.4 percent.
          SSA met its goal. SSA surpassed this goal by continuing to improve the
          Agency’s processes for interviewing job applicants and by increasing the focus
          on early development of new hires, including mentoring.10



9
    P. L. No. 105-270 - October 19, 1998.
10
     Social Security Administration Performance and Accountability Report Fiscal Year 2003, page 53.

Performance Indicator Audit: PMA Related Initiatives (A-15-04-14070)                                   5
Indicator Background

The baseline figure of 84.3 percent for the new hire retention rate was obtained from the
SSA’s New Hire Attrition and Retention Report, which identified an average
2-year attrition rate of 15.7 percent. This average rate was based on attrition of SSA
new hires that were employed during FYs 1998, 1999, and 2000. The 2-year attrition
period was defined as the FY of hire plus the subsequent FY. Data for this indicator is
gathered from the Human Resources Management Information System (HRMIS), which
is SSA’s internal human resources application. This indicator was calculated as follows:

                                                               The number of total new hires in FY 2001
                                                               less the new hires who left the Agency
Percent improvement in retention rate =
                                                               during FY 2001 and FY 2002
                                                               The number of total new hires in FY 2001

In the New Hire Attrition and Retention Report, new hires are defined as persons hired
into permanent positions. Temporary hires were not included in the calculation
because, by definition of being temporary, they are not expected to remain with the
Agency. Conversions from temporary to permanent positions were also not included as
these persons are not “new” hires to the Agency, and are only changing their
employment status.

Findings

Best practices show that organizations (both public and private) use employee retention
as a key performance indicator for evaluating overall performance. This indicator is a
quantitative indicator of the 2-year period retention rate of new hires. It adequately
supports one of SSA’s objectives related to staff, specifically the objective of “Recruit,
develop, and retain a high performing workforce.”11 It is a direct outcome performance
indicator that assesses the level of success in SSA’s effort to retain staff.

However, we found that the description and calculation of this performance indicator
was incomplete. By design, SSA excluded some of the full time equivalent positions
from the final indicator calculation. The impact of including these positions within the
calculation would have an immaterial effect on the final calculation; however, these
exclusions were not disclosed in the PAR.

Other refinements could be made to this performance indicator. For example, the
indicator could be more specific. “Percent improvement in the new hire retention rate”
did not clearly specify a percentage rate increase between the measurement periods.
The current indicator is only stating the retention rate at a point in time.

Our recalculation found a potential overstatement of the number of terminations. SSA
included 474 terminated employees in its calculation as reported in the FY 2003 PAR.

11
     Ibid, page 89.

Performance Indicator Audit: PMA Related Initiatives (A-15-04-14070)                                6
PwC was only able to review supporting documentation for a total of 471 terminated
employees. This is a difference of three employees or one tenth of 1 percent. Although
this difference is immaterial to the final calculation of the indicator, SSA was
unsuccessful in locating the detailed list of individual employees included in the reported
results to reconcile and explain the data difference. The current process provides
summary level reports that do not provide specific employee information.

In addition, PwC was unable to review the computer program for the standardized
reports used to calculate the indicator results. SSA recreated the computer program for
our testing. We were unable to reconcile the results of the new program with the results
contained in the FY 2003 PAR.

Finally, items in the HRMIS suspense file were not being cleared in a timely manner.
During our review of the interface process, we found 33 percent of items (19 out of 58)
listed on the suspense file were not resolved within a week’s time period. This delay
could result in inaccurate reporting for this indicator.

Provide the Equivalent of 40 Hours of Training Annually to All Employees

           FY 2003 Goal: Provide the equivalent of 40 hours of training per employee.
           Actual FY 2003 Performance: Provided an average of 68 hours of training per
           employee.
           SSA met its goal. SSA provides employees with career enhancement and
           individual growth opportunities through its OnLine University (OLU).12

Indicator Background

The Office of Human Resources had recently implemented an OLU. The OLU is an
Internet site that employees can access from any computer that has Internet
connectivity. The purpose of the OLU is to enhance the ongoing training and
development opportunities for all employees by improving access to quality training
resources. Courses are self-paced and completed entirely online.

All SSA employees are eligible to take OLU courses; employees may take up to four
courses in a 6-month period (eight courses a year) with 90 days to complete each
course. For the purpose of this performance indicator, each course equals 4 hours of
training for a total of 32 hours per employee, per year.

In addition to hours of training made available to employees through the OLU, training
sessions are broadcast periodically through SSA’s Interactive Video Teletraining (IVT).
In FY 2003, seven 1-hour Automation Skills courses were broadcast via IVT. For the
purpose of this performance indicator, employees are allowed to take two of these
courses a month for a total of 24 hours per employee, per year.

12
     Ibid, page 90.

Performance Indicator Audit: PMA Related Initiatives (A-15-04-14070)                    7
Seven general topic IVT courses were broadcast in FY 2003. For the purpose of this
performance indicator, employees were allowed to take one course a month for a total
of 12 hours per employee, per year.

Findings

This indicator measures the number of training hours offered to employees and not the
number of training hours actually received by employees. In addition, the indicator does
not measure the adequacy or reasonableness of the training received.

The indicator includes elective training that might not be related to employees’ current
or future job responsibilities. The hours reported did not include all hours of training
made available to SSA employees. The number of hours only included general interest
courses offered through the OLU and a selection of automation IVT courses. It did not
include job-specific training, new hire training, training required for certification, or any
other job enhancement courses offered throughout the year.

The rationale for how this indicator directly supports the Agency’s strategic goal,
“Recruit, develop and retain a high-performing workforce,”13 was not clear. Information
reported in the PAR did not:
      •    Disclose SSA’s efforts to encourage employees to take training or SSA’s efforts
           to monitor and improve the quality of training.
      •    Disclose the meaning of ‘provided,’ as the Agency is only tracking training made
           available to employees, not the actual number of training hours each employee
           received during the year.
      •    Indicate that this is elective training only, not job-specific training.
      •    Articulate the definition of “equivalent hours.”

The usefulness of this indicator could be improved through interim reporting to help SSA
determine whether to increase or decrease efforts expended in employee development.

The number of hours reported in the PAR included an overstatement of the number of
training hours offered through IVT. During our review of the general topic and
automation skills course content, we found that the material was redundant. Only seven
automation skills courses and seven general courses qualified for inclusion in this
indicator. The course curriculum for those courses was not modified in any way for
additional broadcasts. While employees were offered the courses multiple times, taking
the same material multiple times would not enrich the employee. Accordingly, we
believe that these offerings represent 14 hours rather than 36 hours of training.

PwC was informed that the IVT course announcements were made available to all
employees through a schedule published on SSA’s Intranet. However this schedule is
updated monthly and a history of IVT courses offered is not maintained.

13
     Ibid, page 89.

Performance Indicator Audit: PMA Related Initiatives (A-15-04-14070)                       8
Finally, documentation describing the method used to compile and calculate the number
of training hours made available to SSA employees was not provided. We found that
SSA had not documented policies and procedures related to a formal process for
collection of data or the calculation of the number of training hours made available to
SSA employees.

RECOMMENDATIONS
We recommend SSA:

    1. Enhance the discussion of the linkage of the performance indicators to the
       Agency’s strategic goals and objectives.
    2. Ensure that the performance indicator titles, definitions, and goals are explicit,
       complete, and consistent.
    3. Improve documentation by maintaining descriptions of how the performance
       indicator goals were established, documenting the policies and procedures used
       to prepare and disclose the results of the performance indicators, and
       maintaining a complete audit trail for the results of the performance indicators.
    4. Completely and accurately calculate the actual results of the performance
       indicators in accordance with the original goal.

Specific to the performance indicator, “Provide the Equivalent of 40 Hours of Training
Annually to All Employees,” we recommend SSA:

    5. Revise the indicator to measure the amount of job related training actually
       received by employees, and the effectiveness of the training in improving the
       employees’ job related capabilities.

AGENCY COMMENTS
SSA agreed with the recommendations in this report. The text of SSA’s comments can
be found in Appendix D.

PwC RESPONSE
SSA agreed with the recommendations noted in this report. However, it disagreed with
the findings related to documenting policies and procedures for both the “Get to Green”
and “Percent of Commercial Positions Competed or Converted” indicators. The Agency
stated that SSA follows the OMB guidelines for reporting the information related to
“Get to Green,” and SSA follows the OMB A-76 guidelines for calculating the percent of
commercial positions competed or converted. We recommend SSA develop and
consistently follow detailed written internal procedures, outlining the steps taken to
compute and report the results of the performance indicators. Refer to recommendation
number 3.



Performance Indicator Audit: PMA Related Initiatives (A-15-04-14070)                     9
Additionally, SSA disagreed with the “Percent of Commercial Positions Competed or
Converted” finding regarding the lack of clarity within the FY 2003 PAR that the
numerator for this calculation is a composite number. We recommend that the PAR be
updated to ensure that the performance indicator titles, definitions, and goals are explicit
and internally consistent.

SSA indicated in its response to “Provide the Equivalent of 40 Hours of Training
Annually to All Employees” performance indicator that “We are pleased that the review
found that we met our goal and that in FY 2003 we provided an average of 68 hours of
training per employee.” It should be clarified that the PAR stated the Agency met its
goal, not PwC. As discussed in this report, PwC found inconsistent data definitions,
invalid data, and incomplete documentation to support the amounts reported. As a
result, it was not possible for PwC to recalculate the average hours of training provided
to SSA employees.




Performance Indicator Audit: PMA Related Initiatives (A-15-04-14070)                     10
                                        Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Process Flowcharts

APPENDIX D – Agency Comments




Performance Indicator Audit: PMA Related Initiatives (A-15-04-14070)
                                                                       Appendix A
Acronyms
 COSS                   Commissioner
 DCOSS                  Deputy Commissioner
 CSP                    Competitive Sourcing Plan
 DCFAM                  Deputy Commissioner, Finance, Assessment, and Management
 FAIR                   Federal Activities Inventory Reform
 FPPS                   Federal Personnel Payroll System
 FY                     Fiscal Year
 GPRA                   Government Performance and Results Act
 HRMIS                  Human Resource Management Information System
 IVT                    Interactive Video Teletraining
 MEO                    Most Efficient Organization
 OB                     Office of Budget
 OCS                    Office of Competitive Sourcing
 OLU                    OnLine University
 OMB                    Office of Management and Budget
 PAR                    Performance and Accountability Report
 P.L.                   Public Law
 PMA                    President’s Management Agenda
 PwC                    PricewaterhouseCoopers
 PWS                    Performance Work Statement
 SSA                    Social Security Administration
 U.S.C.                 United States Code




Performance Indicator Audit: PMA Related Initiatives (A-15-04-14070)
                                                                       Appendix B

Scope and Methodology
We updated our current understanding of the Social Security Administration’s (SSA)
Government Performance and Results Act (GPRA) processes. This was completed
through research and inquiry of SSA management. We also requested SSA to provide
various documents regarding the specific programs being measured as well as the
specific measurement used to assess the effectiveness and efficiency of the related
program.

Through inquiry, observation, and other substantive testing including testing of source
documentation, we performed the following as applicable:

      •   Reviewed prior SSA, Government Accountability Office,1 and other reports
          related to SSA GPRA performance and related information systems.
      •   Met with the appropriate SSA personnel to confirm our understanding of each
          individual performance indicator.
      •   Flowcharted the processes (see Appendix C).
      •   Where applicable, we tested key controls related to manual or basic
          computerized processes (e.g., spreadsheets, databases, etc.).
      •   Conducted and evaluated tests of the automated and manual controls within and
          surrounding each of the critical applications to determine whether the tested
          controls were adequate to provide and maintain reliable data to be used when
          measuring the specific indicator.
      •   For those indicators with results that SSA determined using computerized data,
          we assessed the completeness and accuracy of that data to determine the data's
          reliability as it pertains to the objectives of the audit.
      •   Identified and extracted data elements from relevant systems and obtained
          source documents for detailed testing selections and analysis.
      •   Identified attributes, rules, and assumptions for each defined data element or
          source document.
      •   Tested the adequacy, accuracy, reasonableness, consistency, and completeness
          of the selection.
      •   Recalculated the metric or algorithm of key performance indicators to ensure
          mathematical accuracy.

As part of this audit, we documented our understanding, as conveyed to us by Agency
personnel, of the alignment of the Agency’s mission, goals, objectives, processes, and
related performance indicators. We analyzed how these processes interacted with
related processes within SSA and the existing measurement systems. Our
understanding of the Agency’s mission, goals, objectives, and processes were used to
determine if the performance indicators being used appear to be valid and appropriate
1
    Formerly called the General Accounting Office.


Performance Indicator Audit: PMA Related Initiatives (A-15-04-14070)                  B-1
given our understanding of SSA’s mission, goals, objectives and processes. We
followed all performance audit standards. In addition to the steps above, we specifically
performed the following to test the indicators included in this report:

“GET TO GREEN” ON ALL PRESIDENT’S MANAGEMENT AGENDA
(PMA) INITIATIVES

    •    Reviewed the Office of Management and Budget (OMB) PMA criteria and applied
         such criteria to data reviewed.
    •    Verified the OMB rating received by SSA on the Government results web site:
         http://www.results.gov/agenda/scorecard.html.

PERCENT OF COMMERCIAL POSITIONS COMPETED OR
CONVERTED
    •    Assessed the reliability of the data by reviewing the number of positions
         competed or converted as reported by SSA in its 2003 Performance and
         Accountability Report (PAR) to the source documents.
    •    Reviewed the OMB Circular No. A-76 criteria for calculating positions competed
         or converted and applied such criteria to data reviewed.
    •    Recalculated and verified the percent of positions competed or converted in
         2001, 2002, and 2003 as shown in the PAR.

PERCENT IMPROVEMENT IN THE NEW HIRE RETENTION
RATE

    •    Reviewed The New Hire Attrition and Retention Report 1998-2000.
    •    Compared and reconciled the number of new hires and terminations to SSA’s
         Fiscal Year (FY) 2003 PAR with SSA data files.
    •    Compared key dates in the data files to check for appropriate inclusion (i.e. hire
         date and termination date).
    •    Compared terminated employees to new hire list to ensure only new hires from
         FY 2001 were included in the termination calculation.
    •    Reviewed the list of FY 2001 new hires and FY 2001 and FY 2002 terminations
         to ensure no duplicates were included.
    •    Performed an application control review over the Human Resource Management
         Information System (HRMIS).
    •    Used programming specialist to determine the adequacy of the programming
         logic used to calculate the indicator.
    •    Traced a selection of new hires to source documentation to verify authorization of
         employment.




Performance Indicator Audit: PMA Related Initiatives (A-15-04-14070)                   B-2
    •    Traced a selection of terminations to source documentation to verify
         authorization of dismissal

PROVIDE THE EQUIVALENT OF 40 HOURS OF TRAINING
ANNUALLY TO ALL EMPLOYEES

    •    Assessed the reliability of the data by inquiring of appropriate personnel as to
         courses offered.
    •    Reviewed the OnLine University offerings at http://www.vcampus.com/ssaolu.
    •    Obtained a list of all courses included in hours of calculation.
    •    Compared and reconciled the number of courses offered to those numbers
         reported.
    •    Recalculated and verified the number of hours made available to SSA
         employees.




Performance Indicator Audit: PMA Related Initiatives (A-15-04-14070)                        B-3
                                                                                                                                               Appendix C

Flowchart of “Get to Green” on all PMA Initiatives


                                                  Budget &                                                                  Financial                   Competitive
       Human Capital                            Performance                         E-Government                                                          Sourcing
        Provided by                              Integration                          Provided by                         Performance                   Provided by
           DCHR                                 Provided by                               DCS                             Provided by                  Chief Strategic
                                                   DCFAM                                                                     DCFAM                          Officer



                                             Information
                                         provided by Lead
                                            Executive is
                                          reviewed by the
                                         Office of Budget
                                        for completeness.



          Data returned to                     Is the                      Draft report             Report submitted                        Is the                DCFAM
           components for          No      information            Yes   Prepared by OB                     to OB                        information   Yes       Management
          further review or                  adequate                                               management for                        adequate                Review
              clarification                                                                              Review


                                                                                                    Gather additional
                                                                                                     information and
                                                                                                    resolve with staff,                                              Is the
                                                                                                       or contacts in                     No                     information
                                                                                                     respective Lead                                               adequate
                                                                                                      Deputy offices
                                                                                                                                                                     Yes

                                              Copy to DCFAM                                                                                                  COSS + DCOSS
                                                planning rep                                                                                                     review



                                                                           Coordinate with
               Distribute to OSM             DCFAM distributes            communications                                                                             Is the
               for Update of SSA               to component                department for                                                                        information
                 Tracking Report                   contacts               Intranet web site                                                                        adequate
                                                                                posting


                                                                                                                                                               SSA Provides
                                                    DCFAM                                                                                                        Update On
                                             Distributes at ESM                                                                                                Progress and
                                                                                                                                                               Status to OMB


              SSA reports on the                                                                         OMB sends to
              PMA ratings in the               OMB Provides                                                  SSA                                              Quarterly PMA
               performance and               Final scorecard to                                                                                               update report
                 accountability                      SSA
                     report.

                                                                          Conference call
                                              OMB / SSA make             with Components,              DRAFT Scorecard               OMB provided
                                                Revisions and             Office of Budget                  Update                 draft assessment             OMB review
                                             Finalize Document               and OMB to                                            on progress and
                                                                         discuss Draft and                                                 status
                                                                          clarify questions




Performance Indicator Audit: PMA Related Initiatives (A-15-04-14070)                                                                                                       C-1
    “Get to Green” on all President’s Management Agenda (PMA) Initiatives:

    •    Information is provided to the Office of Budget (OB) by Lead Executive.
    •    Information provided by Lead Executive is reviewed by the OB for completeness.
    •    OB determines if the information is adequate.
    •    If the information provided by Lead Executives is not adequate, the data is
         returned to components for further review or clarification.
    •    If the information provided by Lead Executives is adequate, a draft report is
         prepared by OB.
    •    The draft report is submitted to OB management for review.
    •    If OB management determines the report is not adequate, it is returned for
         additional information and resolution with OB staff, or the contacts in the
         respective Lead Deputy offices.
    •    If OB management determines the report is adequate, the draft report is
         submitted for Deputy Commissioner, Finance, Assessment, and Management
         (DCFAM) review.
    •    If DCFAM determines the report is not adequate, it is returned for additional
         information and resolution with OB staff, or the contacts in the respective Lead
         Deputy offices.
    •    If DCFAM determines the report is adequate, it is presented to the Commissioner
         (COSS) and Deputy Commissioner (DCOSS) for review.
    •    If COSS and DCOSS determine the report is not adequate, it is returned for
         additional information and resolution with OB staff, or the contacts in the
         respective Lead Deputy offices.
    •    If COSS and DCOSS determine the report is adequate, SSA provides update on
         progress and status to OMB.
    •    OMB reviews the quarterly PMA update report.
    •    OMB provides a draft assessment on progress and status to the SSA through a
         draft scorecard update.
    •    A conference call with components, OB and Office of Management and Budget
         (OMB) is held to discuss draft scorecard update and clarify questions.
    •    OMB / Social Security Administration (SSA) make revisions to the draft scorecard
         update and finalize the scorecard.
    •    OMB provides final scorecard to SSA.
    •    SSA reports on the PMA ratings in the performance and accountability report.




Performance Indicator Audit: PMA Related Initiatives (A-15-04-14070)                  C-2
Flowchart of Percent Commercial Positions Competed or
Converted
 Com petetive                                                                                                                                              Most Efficient
 Sourcing Plan                                                                                                                                              O rganization
                                                                                                                                                          (M EO) / Agency
                                                                                                                                                                tender

                                                               Official
                                                           Announcem ent to
                                                               Unions
                                  Components
                               identify positions
                                                                                              Develop                                                                                      Evaluation
  Compete or                    to be com peted
                   Compete                                                               performance work            Contracting               Solicitation          Bids subm ission   Does the bid m eet
   Convert                    from those on the
                                                                                             statement                                                                                     the SOW?
                                CSP and begin               Announcement
                                  pre-planning                 sent to
                                                           FedBizOpps.gov
    Convert                                                                                                     No



 Component
suggests direct               Questions /
  conversion                                                                                            Re evaluation of             Performance Decision
                              clarifications              Executive                                                                                                   Lowest Bidder         Enter into
                                                No                         Yes Contract awarded           bids based on     Yes     Are there other factors to
                              submitted to                approval                                                                                                      identified       W INCOM PARE
                                                                                                       criteria predefined.          consider besides price
                              components


  OCS reviews
                                   No
component direct
   conversion
    proposal
                              OCS agrees
                                                        Submitted for
                             with decision to   Yes                              Transition Plan         Implementation
                                                      executive approval
                              direct convert

 OCS enters
 proposal into
W inCOMPARE
                                                         Number of
                                                          positions
                                                        competed or
                                                         converted              Divide number of positions           Percentage
                                                                                competed or converted by             of positions              Percentage
                                                                                the number of convertible             competed               Reported on the
                                                                                  positions listed on the                 or                      PAR
                                                                                 2000 FAIR Act Inventory              converted
                                                       Number of FAIR
                                                        ACT Inventory
                                                           2000




Performance Indicator Audit: PMA Related Initiatives (A-15-04-14070)                                                                                                                                 C-3
    Percent Commercial Positions Competed or Converted

    •    The Competitive Sourcing Plan (CSP) is presented to the components and the
         decision is made to compete or convert positions.
    •    If the decision is made to compete positions, components identify the positions to
         be competed from those on the CSP and begin pre-planning. An official
         announcement is made to the unions, at the same time, an announcement is
         sent to FedBizOpps.gov. A Performance Work Statement (PWS) is developed.
         The PWS is sent to the SSA contracting office for approval. Once the PWS is
         approved by contracting, it is sent for solicitation. At the same time the PWS is
         sent for solicitation, the Social Security Administration (SSA) begins work on the
         agency tender, Most Efficient Organization (MEO). Bids are submitted from
         various vendors as well as the MEO. SSA performs an evaluation of all bids
         submitted to ensure the bid meet the PWS. Only bids which meet the PWS are
         enter into software provided by the Office of Management and Budget (OMB),
         (WINCOMPARE). WINCOMPARE identifies the lowest bidder. The bids are
         reviewed for other predefined criteria to consider besides price. The bids are
         reevaluated based on the predefined criteria and a winner is chosen. The
         contract is awarded to the winning bid.
    •    If the decision is made to convert positions, the component submits a direct
         conversion proposal to the Office of Competitive Sourcing (OCS). OCS reviews
         this proposal and enters it into WinCOMPARE. If OCS does not approve of the
         proposal, questions / clarifications are submitted to the component. If OCS
         agrees with the decision to convert positions, the convention proposal is
         submitted for executive approval. If the convention proposal is awarded
         executive approval, the contract is awarded.
    •    A transition plan is developed.
    •    The contract is implemented.
    •    The number of positions competed or converted are divided by the number of
         convertible positions listed on the 2000 Federal Activities Inventory Reform
         (FAIR) Act Inventory to get the percentage of positions competed or converted.
    •    The percentage is reported on the Performance and Accountability Report
         (PAR).




Performance Indicator Audit: PMA Related Initiatives (A-15-04-14070)                    C-4
Flowchart of the Percent Improvement in New
Hire Retention Rate
                                              Automated report                    Was this                  Employee included
   New employee                               run to capture all              employee hired                 in performance
                       Entered into FPPS                                                             Yes
 hired (100 series)                            new hires from                  in Fiscal year                    measure
                                                    2001                           2001?                        calculation


                                                                                    No

                                                                               Employee not                    RLNEWHIR
                                                                                included in                  (Report of all 2001
                                                                               performance                                                    A
                                                   HRMIS                                                        New Hires)
                                                                                 measure
                                                   Datafile
                                                                                calculation




                                           Automated report run to
    Employee                                capture all 2001 new                                                      Was this employee
                                                                           Was this employee hired
 terminated (300       Entered into FPPS       hires who were                                              Yes      terminated in 2001 or
                                                                                   in 2001
     series)                               terminated in 2001 and                                                          2002?
                                                    2002



                                                                                                       No                    Yes
                                                                                     No




                                                                           Employee not included in              Was this employee hired
                                                                                                       No        under pay plans GS, GM,
                                                                            performance measure
                                                                                 calculation                            ES, or AL



                                                                                                                             Yes



                                                                                                                   Employee included in
                                                                                                                   performance measure
                                                                                                                         calculation


       A

                      Total from Report                     Percent
                                                        improvement in
                      RLNHSE98 didived                    the new hire
                        by total from                    retention rate.                                                 RLNHSE98
                        RLNEWHIR                                                                                   (Report of all 2001 New
       B                                                                                  B                        Hires terminated in 2001
                                                                                                                          and 2002)




Performance Indicator Audit: PMA Related Initiatives (A-15-04-14070)                                                                              C-5
Percent Improvement in New Hire Retention Rate


    •    New employees hired (100 series) and terminated employees (300 series) are
         entered into Federal Personnel Payroll System (FPPS).
    •    FPPS interfaces nightly with Human Resource Management Information System
         (HRMIS) and populates the HRMIS data file.
    •    Automated reports are run to capture all new hires from 2001 and the
         RLNEWHIR report is produced (report of all 2001 New Hires).
    •    Automated reports are run to capture all 2001 new hires who were terminated in
         2001 and 2002. Only employees hired under qualifying pay plans are included.
         The RLNHSE98 is produced (report of all 2001 New Hires terminated in 2001
         and 2002).
    •    The total from report RLNHSE98 is divided by the total from RLNEWHIR.
    •    The percent improvement in the new hire retention rate is reported on the
         Performance and Accountability Report (PAR).




Performance Indicator Audit: PMA Related Initiatives (A-15-04-14070)                 C-6
Flowchart of Provide the Equivalent of 40 hours
of Training Annually to All Employees

         On-line
        University
         course
          hours
         offered




                                                                        Number of hours
        Seattle IBT                                                    of training annually
          course                                    Number of hours       provided to all
           hours                                     offered totaled        employees
          offered




        Broadcast
         General
         courses
          hours
         offered




Performance Indicator Audit: PMA Related Initiatives (A-15-04-14070)                          C-7
Provide the Equivalent of 40 hours of Training Annually to All Employees

    •    The number of OnLine University (OLU) course hours, Interactive Video
         Teletraining (IVT) Automation Skills course hours and IVT general topic course
         hours offered are totaled.
    •    The number of hours is reported in the Performance and Accountability Report
         as the number of training annually provided to all employees.




Performance Indicator Audit: PMA Related Initiatives (A-15-04-14070)                      C-8
                                                                       Appendix D
Agency Comments




Performance Indicator Audit: PMA Related Initiatives (A-15-04-14070)
                                                  SOCIAL SECURITY

MEMORANDUM                                                                        33296-24-1158

Date:      July 30, 2004                                                          Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Acting Inspector General
From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report "Performance Indicator Audit: President's
           Management Agenda Related Initiatives" (A-15-04-14070)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Please let me know if you have any questions. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




           Performance Indicator Audit: PMA Related Initiatives (A-15-04-14070)                           D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT "PERFORMANCE INDICATOR AUDIT: PRESIDENT'S MANAGEMENT
AGENDA (PMA) RELATED INITIATIVES" (A-15-04-14070)


Thank you for the opportunity to review and comment on the draft report. We are pleased that
the review found that we met or exceeded our goal on 3 of the 4 indicators. We are also pleased
to report that, through our continuing efforts to improve our performance measurement and
accountability processes, we have already taken action to address some of the areas identified as
needing improvement. Our comments below address the findings for the four specific indicators.

"Get to Green” on all Presidential Management Agenda Initiatives

We are pleased that the review found that: 1) we met our goal; 2) the data provided was accurate
and complete; and 3) the initiatives represent high-level strategic directions that cover 3 of our 4
strategic goals. However, we disagree with the finding that we have not documented policies
and procedures related to the formal process to collect, review and provide PMA information to
the Office of Management and Budget (OMB). The formal process for tracking progress of
implementing PMA’s as outlined by OMB calls for agencies to develop quarterly status reports
in each of the categories. The internal documentation of how we provide information to OMB to
make that judgment is secondary to OMB’s systems and procedures. We continue to comply
with OMB’s reporting requirements in this area and we have recently made substantial progress
toward meeting the actual goal of getting to green. OMB’s scorecard as of June 30, 2004 (PDF
file attached) shows that we are green on progress for all five PMA categories and green on
status for three of the five.

Percent of Commercial Positions Competed or Converted

We disagree with the finding that we have not formally documented our procedures related to the
development of the Competitive Sourcing Plan (CSP). We continue to follow OMB guidelines
in its A-76 Circular that govern Agency activities. Copies of the documentation have been
collected in one binder so that anyone working in this area has a reference immediately available
and, therefore, we did not find it necessary to reinterpret the rules that we must follow. We also
disagree with the finding that we did not articulate in the FY 2003 Performance and
Accountability Report (PAR) that the numerator for this calculation is a composite number. The
data definition as articulated in the PAR is consistent with established A-76 procedures. In the
past we have consistently had our Federal Activities Inventory Reform Act (FAIR) inventory and
Competitive Sourcing Plan approved by OMB using the government-wide guidelines.




Performance Indicator Audit: PMA Related Initiatives (A-15-04-14070)                             D-2
Percent Improvement in the New Hire Retention Rate

We are pleased that the report found that we met and surpassed our goal. Regarding the finding
that the description and calculation was incomplete, we believe the report should explain the
basis and rationale for the intentional “by design” exclusion. Specifically, we excluded the wage
grade (WG) positions since the annual new hire rate would be compared to the baseline
previously established, we concluded that the data parameters should be consistent with the data
parameters used in the baseline calculation and that did not include the WGs. We are pleased
that you found that the impact of excluding those positions within the calculation had no material
effect on the final calculation.

As part of our ongoing activities to improve the performance measurement and accountability
process, we have: 1) improved our data collection and posting processes; and 2) implemented
documentation maintenance and developed record keeping systems; however, we also maintain
that this continues to be a valid measure.

Provide the Equivalent of 40 Hours of Training Annually to All Employees

We are pleased that the review found that we met our goal and that in FY 2003 we provided an
average of 68 hours of training per employee. We acknowledge that there have been problems
with the data definitions, data validity, and associated documentation. This is among a number
of “Staff” measures that are being totally restructured for the FY 2005/2006 Annual Performance
Plans (APP). We will consider PwC’s comments as we develop new measures. Our response to
the specific recommendation (#5) is provided below.

Recommendation 1

SSA should enhance the discussion of the linkage of the performance indicators to the Agency’s
strategic goals and objectives.

Response

We welcome external input, suggestions, and the contributions the Inspector General has made,
and continues to make, in assisting us in developing a comprehensive performance measurement
process. We too are committed in our efforts toward documenting relevant performance
measures, ensuring our performance data are complete, and implementing adequate internal
controls over our data systems and processes. We will consider and adopt where appropriate the
suggestions for enhancements as we develop future APP’s and PAR’s.

Recommendation 2

SSA should ensure that the performance indicator titles, definitions, and goals are explicit,
complete, and consistent.

Response



Performance Indicator Audit: PMA Related Initiatives (A-15-04-14070)                            D-3
See response for recommendation #1.

Recommendation 3

SSA should improve documentation by maintaining descriptions of how the performance
indicator goals were established, documenting the policies and procedures used to prepare and
disclose the results of the performance indicators, and maintaining a complete audit trail for the
results of the performance indicators.

Response

See response for recommendation #1.

Recommendation 4

SSA should completely and accurately calculate the actual results of the performance indicators
in accordance with the original goal.

Response

See response for recommendation #1.

Recommendation 5

SSA should revise the indicator to measure the amount of job related training actually received
by employees, and the effectiveness of the training in improving the employees’ job related
capabilities.

Response

We agree. It should be noted that for our largest workload component (Operations), data is
available from the work measurement systems that allow us to compute the number of work-
years spent on both new staff and ongoing training. The FY 2003 data from that system confirm
that Operation’s employees actually received more than 40 hours of training. For the revised
FY-2005/FY-2006 APP we will propose new training performance goals that identify and
provide training on job-specific competencies for specific mission-critical positions.




Performance Indicator Audit: PMA Related Initiatives (A-15-04-14070)                             D-4
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.

                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.

                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
